App. 1
FILE COPY
OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
[SEAL]
6/16/2021
Tr. Ct. No. 14-026A
CANO, JUAN JOE
WR-92,266-01
This is to advise that the Court has denied without
written order the application for writ of habeas corpus
on the findings of the trial court without a hearing and
on the Court’s independent review of the record.
Deana Williamson, Clerk
RANDY SCHAFFER
ATTORNEY AT LAW
1021 MAIN ST. #1440
HOUSTON, TX 77002
* DELIVERED VIA E-MAIL *

App. 2
FILE COPY
OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
[SEAL]
6/16/2021
Tr. Ct. No. 14-031A
CANO, JUAN JOE
WR-92,266-03
This is to advise that the Court has denied without
written order the application for writ of habeas corpus
on the findings of the trial court without a hearing and
on the Court’s independent review of the record
Deana Williamson, Clerk
RANDY SCHAFFER
ATTORNEY AT LAW
1021 MAIN ST. #1440
HOUSTON, TX 77002
* DELIVERED VIA E-MAIL *

App. 3
Cause No. 14-026, 14-031
EX PARTE
JUAN JOE CANO

§
§
§
§
§
§

IN THE DISTRICT
COURT OF
MATAGORDA COUNTY,
TEXAS
130th JUDICIAL
DISTRICT COURT

FINDINGS OF FACT AND
CONCLUSIONS OF LAW
(Filed Dec. 31, 2020)
Applicant Juan Joe Cano has filed applications for
writ of habeas corpus, post-conviction, in these two
causes. In one ground, Cano alleges his trial attorney
provided ineffective assistance of counsel for various
reasons.
In Cause No. 14-026, the jury found Cano guilty of
indecency with a child and sentenced him to serve a
two-year term. In No. 14-031, the jury found Cano
guilty of sexual abuse of a child and sentenced him to
a 25-year term. Judgments entered November 6, 2014.
In both cases, the appellate court affirmed and the
Texas Court of Criminal Appeals refused the petition
for discretionary review.
In reaching these findings, the court has reviewed
Cano’s application, brief and exhibits, the State’s response, trial counsel’s affidavit, the court files and records and its own recollection.

App. 4
I.
Ineffective Assistance of Counsel
Applicant had the right to the effective assistance
of counsel at trial pursuant to the Sixth and Fourteenth Amendments to the United States Constitution.
Applicant must show that counsel’s performance
was deficient under prevailing professional norms and,
but for counsel’s errors, there is a reasonable probability that the outcome of the trial would have been different. Strickland v. Washington, 466 U.S. 668, 687-88,
690 (1984). “A reasonable probability is probability sufficient to undermine confidence in the outcome.” Id. at
694.
Applicant need not show a reasonable probability
that, but for counsel’s errors, he would have been acquitted. “The result of the proceeding can be rendered
unfair, and hence the proceeding itself unfair, even if
the errors of counsel cannot be shown by a preponderance of the evidence to have determined the outcome.”
Strickland. 466 U.S. at 694. The issue is whether applicant received a fair trial that produced a verdict worthy of confidence. Cf. Kyles v. Whitley, 514 U.S. 419, 434
(1995).
Assertions of ineffective assistance of counsel
must be firmly founded in the record. Bone v. State, 77
S.W.3d 828, 835 (Tex. Crim. App. 2002).

App. 5
II.
Ground One
Ineffective assistance of counsel
in the guilt-innocence phase
Ground One in both applications claim trial counsel was ineffective in the guilt-innocence stage.
A. Failing to Object to Inadmissible Opinion Testimony.
Cano first alleges that trial counsel was ineffective
for failing to file motions in limine and to object to inadmissible opinion testimony.
Cano claims that Cpl. Guajardo’s (investigator)
and Ms. Mikkelson’s (forensic interviewer) testimony
amounted to improper opinion testimony that the complainant was telling the truth in making the sexual assault allegations. The State and trial counsel argue
that Guajardo merely testified as to their personal observations as to the complainant’s demeanor.
The court finds that the State’s position is well
taken – the testimony by the two witnesses, taken as a
whole, did not rise to improper opinion that the complainant told the truth.
B. Referring to the Complainant as “Victims”
Cano next alleges that trial counsel was ineffective for failing to object to the State’s attorney and witnesses referring to the complainant as “victims.”

App. 6
The failure to file a motion in limine to prevent the
State from referring to G.D. as a “victim” and to object
to the use of that standing alone, does not require a
finding of ineffective assistance of counsel. Gonzalez v.
State, 510 S.W.3d 10, 31-32 (Tex. App.—Corpus ChristiEdinburg 2014, pet. ref ’d.).
Counsel is not ineffective for failing to object to the
use of the term “victim.” Weatherly v. State, 283 S.W.3d
481, 486 (Tex. App.—Beaumont 2009, pet. ref ’d).
Considering the evidence in full, the court finds
that Cano’s trial counsel did not perform ineffectively
on this claim.
C. Cindy Cano’s Testimony
Cano next alleges trial counsel was ineffective
for not objecting when the complainant’s grandmother, Cindy Cano, testified that she believed the
complaintants were not telling the truth.
Trial counsel states that this was his client’s
defense – that the complainant’s testimony was not
truthful. He also testified he employed this strategy
consistently through trial. Cindy Cano’s testimony was
consistent with this strategy.
The records bears out counsel’s testimony. This is
a reasonable trial strategy, and an effective one when
the jury believes the testimony.
Here, the case is most similar to Joseph v. State,
367 S.W.3d 741, 745 (Tex. App.—Houston [14th Dist.]

App. 7
2012, pet ref ’d), where the court held a similar question harmless because the question “merely highlight[ed] the fact that the defendant disagrees with
State’s witnesses’ testimony.”
Likewise, the State’s criticism of Cindy Cano’s
testimony only highlighted that the State disagreed
with it.
D. Cindy Cano’s Testimony, Opportunity
and Impotence
Cano next claims trial counsel was ineffective for
eliciting testimony from applicant’s wife, that he was
never alone with the complainants and that Cano was
impotent.
As to the former testimony, Cano’s wife did state
on cross examination that Cano was alone with the
children for a minute or two on occasion.
This testimony hardly impeached the wife’s pervious testimony. In the end, the testimony as a whole was
consistent with Cano’s defense that he never had the
opportunity to commit the offenses as the complainant
described them.
Cano claims that testimony about Cano’s impotence opened the door for Diana Estrada’s harmful testimony about a previous affair. Trial counsel claims
Estrada’s testimony was inconsequential because the
affair occured before the criminal conduct alleged occurred. He also claims the testimony was not credible

App. 8
due to Estrada’s prior ciminal conduct and pending
charge.
The State answers that there is no evidence that
Cano’s attorney knew Estrada was available to testify
(or that she existed) and that even so, the testimony
that Cano was impotent was a legitimate judgment
call.
The court agrees with the State. First, there was
no expert medical testimony in the record regarding
any medical condition that Cano suffered would render
him impotent during the relevant times.
Second, Cano’s wife would be in the best position
to know whether or not Cano could achieve an erection.
This testimony was beneficial to Cano’s defense and
there was no clear testimony regarding Cano’s impotence in the relevant time period to contradict it. Eliciting the testimony as Cano’s attorney was reasonable
trial strategy that the court may not second guess in a
Strickland analysis.
E. Complainants’ Prior Inconsistent Statements
Cano next alleges his trial attorney failed to impeach each complainant with her prior inconsistent
statements. The State responds that defense counsel’s
strategy to avoid hard cross examination of children
who have testified they have suffered sexual assault is
a reasonable strategy.

App. 9
A defense attorney has to weight the potential for
“incurring the jury’s ire” for aggressively cross examining a child witness in that circumstance against the
value of any information that might be gained from
such an examination.
Defense counsel testified he was concerned in the
moment given the child witness responses and demeanor that more aggressive questioning would result
in little help with Cano’s defense and would possibly
make the child witnesses more sympathetic to the jury
than they already might have been.
This is exactly the heat of the moment snap decision a defense attorney must make that trial courts are
cautioned against second-guessing.
The court agrees with the State’s argument that
the court may not second guess attorney’s choice in this
matter.
F. Failing to Consult with Experts
Finally, Cano states his defense attorney performed ineffectively by failing to consult with a psychologist to review the evidence and testify that the
parents asked the complainants leading questions that
suggested that Cano sexually abused them before they
accused him of sexual assualt thereby contaminating
their subsequent accusations.
Texas high courts so far have not found that defense counsel have a general duty to consult with an

App. 10
expert about questioning children who may have suffered sexual assault.
Cano cites four cases – two (Briggs, Overton) relate
to death cases where cause of death can only be established by expert testimony. One, Wright, relates to the
failure to call an expert to consult regarding therapists
notes. There are no therapist notes in this case. The
fourth case cited by Cano, Mullins, is a Kansas case.
The trial court believes it is not for the court in a
writ proceeding to recommend the holding in this Kansas case be adopted in Texas.
While the court, with the benefit of hindsight, may
find that some of defense counsel’s strategies were unsuccessful or that other strategies might have been
more successful, counsel’s defense does not meet Strickland’s standard for ineffective assistance.
G. Conclusion
Cano raises several claims that amount to a second-guessing of his attorney’s trial strategy. Counsel
articulated in his affidavit a plausible basis for each
strategic decision.
A reviewing court’s assessment of trial counsel’s
performance must be highly deferential – the court
should indulge a strong presumption that counsel’s
performance fill within a wide range of reasonable representation. Tong v. State, 25 S.W.3d 707, 712 (Tex.
Crim. App. 2000).

App. 11
Reviewing courts are also cautioned not to secondguess counsel’s reasonable but unsuccessful strategies
and decisions with the benefit of hindsight, or because
another attorney after the fact may have tried the case
differently. Blott v. State, 588 S.W.2d 588, 593 (Tex.
Crim. App. 1979).
Here, the record does not show trial counsel’s performance to be reasonable and consistent through
trial. The court concludes counsel did not provide ineffective of assistance of counsel.
The trial court recommends that the application
be denied.
III.
Transmitting the Record
The Clerk of the Court is ORDERED to prepare a
transcript of this cause, including therein all the pleadings and motions filed by the petitioner, all pleadings
and motions filed by the state, including copies of all
exhibits filed by the parties, the docket sheet, all orders
of the court in this case, and the final Findings of Fact
and Conclusions of Law of the trial court and transmit
the transcript to the Court of Criminal Appeals pursuant to Article 11.071, Tex. Code. Crim. Pro., providing
copies of this transcript to both the representatives of
the State and to counsel for Applicant.

App. 12
Signed: December 31, 2020 (9:15am).
/s/ Craig Estlinbaum
Judge Presiding

App. 13
FILE COPY
OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
[SEAL]
11/9/2016

COA No. 13-15-00005-CR
Tr. Ct. No. 14-026
CANO, JUAN JOE
PD-1046-16
On this day, the Appellant’s petition for discretionary
review has been refused.
Abel Acosta, Clerk
13TH COURT OF APPEALS CLERK
DORIAN RAMIREZ
901 LEOPARD
CORPUS CHRISTI, TX 78401
* DELIVERED VIA E-MAIL *

App. 14
FILE COPY
OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
[SEAL]
11/9/2016

COA No. 13-15-00007-CR
Tr. Ct. No. 14-031
CANO, JUAN JOE
PD-1048-16
On this day, the Appellant’s petition for discretionary
review has been refused.
Abel Acosta, Clerk
13TH COURT OF APPEALS CLERK
DORIAN RAMIREZ
901 LEOPARD
CORPUS CHRISTI, TX 78401
* DELIVERED VIA E-MAIL *

App. 15
2016 WL 4145966
Only the Westlaw citation is currently available.
SEE TX R RAP RULE 47.2 FOR
DESIGNATION AND SIGNING OF OPINIONS.
Do not publish. TEX. R. APP. P. 47.2 (b).
Court of Appeals of Texas, Corpus Christi-Edinburg.
Juan Joe CANO, Appellant,
v.
The STATE of Texas, Appellee.
NUMBER 13-15-00005-CR, NUMBER
13-15-00006-CR, NUMBER 13-15-00007-CR
|
Delivered and filed August 4, 2016.
|
Rehearing Overruled August 19, 2016
|
Discretionary Review Refused November 9, 2016
On appeal from the 130th District Court of Matagorda County, Texas, Hon. Craig Estlinbaum,
District Judge.
Attorneys and Law Firms
Cary M. Faden, Attorney at Law, Sugar Land, TX, for
Juan Joe Cano.
Robinson C. Ramsey, Langley & Banack, San Antonio,
TX, Steven E. Reis, District Attorney, Lindsay K. Deshotels, Assistant District Attorney, Bay City, TX, for
the State of Texas.
Before Justices Rodriguez, Benavides, and Perkes

App. 16
MEMORANDUM OPINION
Memorandum Opinion by Justice Benavides
By three issues, appellant Juan Joe Cano challenges his conviction for indecency with a child by sexual contact, indecency with a child by exposure, and
continuous sexual assault of a child.1 See TEX. PENAL
CODE ANN. §§ 21.11(a)(1), 22.11(a)(2), and 21.02 (West,
Westlaw through 2015 R.S.). Cano alleges: (1) the joinder of two of his cases was unfairly prejudicial; (2) the
evidence was insufficient to support a conviction for indecency with a child by exposure; and (3) double jeopardy was violated by charging him with indecency with
a child by contact and continuous sexual assault of a
child. We affirm.
I.

BACKGROUND2

In the summer of 2013, Corporal Maria Guajardo
of the Bay City Police Department was assigned a case
against Cano involving allegations of abuse by five
complainants, Child 1, Child 2, Child 3, Child 4, and

1

Cano was charged in three separate cause numbers that
are on appeal with this Court: 14-026 (13-15-00005-CR); 14-027
(13-15-00006-CR); and 14-031 (13-15-00007-CR). The offenses
were joined and tried in a consolidated trial. We will address the
issues for all three cause numbers in one opinion.
2
Because this is a memorandum opinion and the parties are
familiar with the facts, we will not recite them here except as necessary to advise the parties of the Court’s decision and the basic
reasons for it. See TEX. R. APP. P. 47.4.

App. 17
Child 5.3 Based on the information the children provided in their forensic interviews, indictments were issued for Cano. He was charged with indecency with a
child by contact with Child 1, indecency with a-child by
exposure with Child 2, and continuous sexual assault
with Child 2, Child 3, Child 4, and Child 5. See id.
§§ 21.11(a)(1), 22.11(a)(2), and 21.02. The children involved in the case-were Cano’s step-grandchildren. The
State filed a motion to join the cause numbers for trial,
which was granted. Prior to the beginning of trial,
Cano filed a motion to sever, but after argument, the
trial court denied the motion. See id. § 3.04 (West,
Westlaw through 2015 R.S.). At trial, the jury found
Cano guilty of all three offenses. Punishment was assessed at two years’ imprisonment in the Texas Department of Criminal Justice—Institutional Division
for the indecency with a child by contact charge, two
years’ imprisonment, probated for two years, for the indecency with a child by exposure charge, and twentyfive years’ imprisonment for the continuous sexual assault of a child charge.4 This appeal followed.

3

Due to the age of the children and nature of the offenses,
we will refer to the child complainants by pseudonym only.
4
Cano was also charged with indecency with a child by exposure with Child 4, but the State dismissed the charge following
the conclusion of the State’s evidence.

App. 18
II.

EVIDENCE WAS SUFFICIENT5

By his second issue, Cano argues the evidence was
insufficient to support his conviction for indecency
with a child by exposure.

A. Standard of Review and Applicable Law
“The standard for determining whether the evidence is legally sufficient to support a conviction is
‘whether, after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime
beyond a reasonable doubt.’ ” Johnson v State, 364
S.W.3d 292, 293-94 (Tex. Crim. App. 2012) (quoting
Jackson v. Virginia, 443 U.S. 307, 319 (1979)) (emphasis in original); see Brooks v. State, 323 S.W.3d 893, 89899 (Tex. Crim. App. 2010) (plurality op.). The factfinder is the exclusive judge of the credibility of witnesses and of the weight to be given to their testimony.
Brooks, 323 S.W.3d at 899; Lancon v. State, 253 S.W.3d
699, 707 (Tex. Crim. App. 2008). Reconciliation of conflicts in the evidence is within the fact-finder’s exclusive province. Wyatt v. State, 23 S.W.3d 18, 30 (Tex.
Crim. App. 2000). We resolve any inconsistencies in the
testimony in favor of the verdict. Bynum v. State, 767
S.W.2d 769, 776 (Tex. Crim. App. 1989) (en banc).
We measure the sufficiency of the evidence by the
elements of the offense as defined by a hypothetically
correct jury charge. Villarreal v. State, 286 S.W.3d 321,
5

We will address Cano’s issues out of order in this opinion.

App. 19
327 (Tex. Crim. App. 2009) (citing Malik v. State, 953
S.W.2d 234, 240 (Tex. Crim. App. 1997)). Such a charge
is one that accurately sets out the law, is authorized by
the indictment, does not unnecessarily increase the
State’s burden of proof or unnecessarily restrict the
State’s theories of liability, and adequately describes
the particular offense for which the defendant was
tried. Id. The offense of indecency with a child by exposure, as alleged in the indictment, required the State
to prove that appellant, with the intent to arouse or
gratify the sexual desires of appellant, exposed his
genitals, knowing that Child 2 was present. See TEX.
PENAL CODE ANN. § 22.11(a)(2).
B. Discussion
Cano argues the evidence was insufficient to support his conviction for indecency with a child by exposure. During testimony, Child 2 stated that Cano had
recently gotten out of the shower, walked into an open
doorway, took off his towel exposing his genitals to her,
and smiled before walking away. Cano offered this
Court multiple hypothetical reasons he could have exposed himself to Child 2; however, a reasonable factfinder could have found beyond a reasonable doubt
that his action was intentional. The jury is allowed to
draw reasonable inferences from the evidence, and we
presume they did so. See Lacour v. State, 8 S.W.3d 670,
671 (Tex. Crim. App. 2000) (en banc).
A jury was allowed to consider this instance of exposure to Child 2, as well as other incidents of abuse

App. 20
about which she testified. We find the evidence was sufficient to support the jury’s determination of guilt regarding the charge of indecency with a child by
exposure. We overrule Cano’s second issue.
III.

JOINDER WAS PROPER

By his first issue, Cano argues that joining the indecency with a child by contact and the indecency with
a child by exposure cases in a consolidated trial was
unfairly prejudicial.
A. Standard of Review and Applicable Law
A “defendant may be prosecuted in a single criminal action for all offenses arising out of the same criminal episode.” TEX. PENAL CODE ANN. § 3.02(a)
(West, Westlaw though 2015 R.S.). “Criminal episode”
means the “commission of two or more offenses, regardless of whether the harm is directed towards or
inflicted upon more than one person or item of property, under the following circumstances . . . (2) the offenses are the repeated commission of the same or
similar offenses.” Id. § 3.01(2) (West, Westlaw through
2015 R.S.). However, “the right to severance under
[Section 3.04] does not apply to a prosecution for offenses described by Section 3.03(b)6 unless the court
determines that the defendant or the state would be
unfairly prejudiced by a joinder of offenses, in which
6

Texas Penal Code section 3.03(b) refers to the sentences for
offenses arising out of the same criminal episode. See TEX. PENAL CODE ANN. § 3.03(b) (West, Westlaw through 2015 R.S.).

App. 21
event the judge may order the offenses to be tried separately or may order other relief as justice requires.”
Id. § 3.04(c) (West, Westlaw through 2015 R.S.).
The standard of review for whether a trial court
properly ruled on a motion to sever, when that determination is left to the trial court by statute, is abuse of
discretion. Matthews v. State, 152 S.W.3d 723, 730 (Tex.
App.—Tyler 2004, no pet.).
B. Discussion
The State filed a motion for joinder of Cano’s cases,
to which Cano responded with a motion to sever the
cases. See TEX. PENAL CODE ANN. § 3.04(c). Counsel
for the State and Cano argued before the trial court as
follows:
Cano: And what I filed on the motion for severance—I understand under that, Judge,
it says that the right to severance in this
section doesn’t apply to prosecution for offenses described in [section] 3.03(b). And
that’s indecency with a child and the sex
case we’re talking about here, but it gives
the Court the discretion to determine
whether the defendant of the State would
be unfairly prejudiced by joinder of the offenses. And under the statute, it leaves it
up to the Judge; and I’m asking that you
do that in that trying all these together
would unfairly prejudice my client.
That’s all I have, your Honor.
....

App. 22
State: Your Honor, the State would respond
that that is correct, that the right to severance doesn’t apply for these cases unless you determine that there is—that it
is unfairly prejudicial to this defendant.
However, the State would say that it’s not
unfairly prejudicial to this defendant because under the right circumstances in
these types of cases, 38.37 under the Code
of Criminal Procedure, allows for this
type of evidence to come in anyways.
So essentially, regardless of if the cases
are joined for trial or separated, the same
evidence is gonna come in.
Court:

Okay. The motion to sever is denied.

“ ‘There is no presumption that the joinder of cases
involving aggravated sexual assault against different
children is unfairly prejudicial.’ ” Hulsey v. State, 211
S.W.3d 853, 858 (Tex. App.—Waco 2006, no pet.) (quoting Salazar v. State, 127 S.W.3d 355, 365 (Tex. App.—
Houston [14th Dist.] 2004, pet. ref ’d)). Here, the State
referenced article 38.37 of the code of criminal procedure, which relates specifically to extraneous offenses
or acts in the prosecution of sexual based offenses. See
TEX. CODE CRIM. PROC. ANN. art. 38.37 (West,
Westlaw through 2015 R.S.). Under article 38.37,
evidence that the defendant has committed a
separate offense as described by Subsection
(a)(1) or (2) (sexual based offenses) may be admitted in the trial of an alleged offense described in Subsection (a)(1) or (2) for any
bearing the evidence has on relevant matters,

App. 23
including the character of the defendant and
acts performed in conformity with the character of the defendant.
See id., § 2(b). The State gave proper notice prior to
trial of its intent to use extraneous sexual based offenses in Cano’s trial. Therefore, even if the trial court
had severed the cases, the State’s argument that the
offenses would have most likely been admissible was
proper. The trial court did not abuse its discretion finding there would be no unfair prejudice to Cano to try
the cause numbers together. We overrule Cano’s first
issue.
IV.

NO DOUBLE JEOPARDY VIOLATION

By his third issue, Cano alleges his conviction for
indecency with a child by contact could have formed
part of the offense of continuous sexual assault and
would have been a violation of double jeopardy. See
TEX. PENAL CODE ANN. §§ 21.11(a)(1), 21.02.
A. Discussion
Cano was convicted of both indecency with a child
by contact and continuous sexual assault. See TEX.
PENAL CODE ANN. §§ 21.11(a)(1), 21.02. The complainant in the indecency with a child by contact case
was Child 1. The complainants in the continuous sexual assault case were Child 2, Child 3, Child 4, and
Child 5. Cano argues the State claimed the event underlying the indecency with a child by contact charge
occurred eight days after the time period the State

App. 24
relied on for the continuous sexual assault charge; yet
in the motion for joinder, the State argued the events
arose out of a single criminal episode. However, a
“criminal episode” can encompass “offenses [that] are
the repeated commission of the same or similar offenses.” See TEX. PENAL CODE ANN. § 3.01.
“Both Texas and federal courts recognize that
prosecutors have broad discretion in deciding which
cases to prosecute.” Neal v. State, 150 S.W.3d 169, 173
(Tex. Crim. App. 2004) (en banc). “Thus, ‘if the prosecutor has probable cause to believe that the accused committed an offense defined by statute, the decision
whether to prosecute and what charge to file generally
rests entirely within his or her discretion.’ ” Id. (quoting State v. Malone Serv. Co., 829 S.W.2d 763, 769 (Tex.
1992)).
The State had the discretion on how to charge
Cano with the offenses they alleged he committed. Regardless of the time period alleged in the continuous
sexual assault charge, the State was entitled to charge
Child 1 as the complainant in a separate offense. No
double jeopardy violation occurred since Child 1 was
not an included complainant in the continuous sexual
assault charge. The State argued that Cano committed
the same or similar offenses in order to join them under the “same criminal episode.” The trial court agreed
and allowed the joinder of the cases. We overrule
Cano’s third issue.

App. 25
V.

CONCLUSION

We affirm the trial court’s judgments.

App. 26
[SEAL]

CASE NO. 14-026 COUNT 1
INCIDENT NO./TRN: 9228004665

THE STATE OF TEXAS

§
§
v.
§
§
JUAN JOE CANO
§
STATE ID NO.: TX06347492 §

IN THE 130TH DISTRICT
COURT
MATAGORDA COUNTY,
TEXAS

JUDGMENT OF CONVICTION BY JURY
Judge Presiding:
Date Judgment
HON. CRAIG ESTLINBAUM Entered: 11/6/2014
Attorney for State:
STEVEN REIS

Attorney for
Defendant:
MARIO MADRID

Offense for which Defendant Convicted:
INDECENCY WITH A CHILD
Charging Instrument
INDICTMENT

Statute for Offense:
21.11(a)(1) Penal Code

Date of Offense:
7/7/2013
Degree of Offense:
2ND DEGREE FELONY

Plea to Offense:
NOT GUILTY

Verdict of Jury:
GUILTY

Findings on Deadly Weapon:
N/A

Plea to 1st Enhancement
Paragraph: N/A

Plea to 2nd Enhancement/
Habitual Paragraph: N/A

App. 27
Findings on 1st Enhancement Findings on 2nd Enhancement/
Paragraph: N/A
Habitual Paragraph: N/A
Punished Assessed by:
JURY

Date Sentence Date Sentence
Imposed:
to Commence:
11/6/2014
11/6/2014

Punishment and
2 YEARS INSTITUTIONAL
Place of Confinement: DIVISION, TDCJ
THIS SENTENCE SHALL RUN CONCURRENTLY.

⬜

SENTENCE OF CONFINEMENT SUSPENDED, DEFENDANT PLACED ON COMMUNITY SUPERVISION FOR

Fine:
$0.00

N/A

Court Costs: Restitution Restitution Payable
$599.00
$ N/A
to:
⬜ VICTIM
(see below)
⬜ AGENCY/AGENT
(see below)

Sex Offender Registration Requirements apply
to the Defendant. TEX. CODE CRIM. PROC. chapter 62.
The age of the victim at the time of the offense was 8
years.
If Defendant is to serve sentence in TDCJ,
enter incarceration periods in chronological
order.

Time
Credited:

From 7/12/2013 to
7/13/2013
From
to

From

to

From

to

From

From

to

to

App. 28
If Defendant is to serve sentence in county
jail or is given credit toward fine and costs,
enter days credited below.
N/A DAYS NOTES: N/A
All pertinent information, names and assessments indicated above are incorporated into the
language of the judgment below by reference.
This cause was called for trial in Matagorda
County, Texas. The State appeared by her District Attorney.
Counsel/Waiver of Counsel (select one)
☒ Defendant appeared in person with Counsel.
⬜ Defendant knowingly, intelligently, and voluntarily
waived the right to representation by counsel in
writing in open court.
It appeared to the Court that Defendant was mentally competent and had pleaded as shown above to the
charging instrument. Both parties announced ready
for trial. A jury was selected, impaneled, and swore.
The INDICTMENT was read to the jury, and Defendant entered a plea to the charged offense. The Court
received the plea and entered it of record.
The jury heard the evidence submitted and argument of counsel. The Court charged the jury as to its
duty to determine the guilt or innocence of Defendant,
and the jury retired to consider the evidence. Upon returning to open court, the jury delivered its verdict in
the presence of Defendant and defense counsel, if any.
The Court received the verdict and ORDERED it entered upon the minutes of the Court.

App. 29
Punishment Assessed by Jury / Court / No
election (select one)
☒ Jury. Defendant entered a plea and filed a written
election to have the jury assess punishment. The jury
heard evidence relative to the question of punishment.
The Court charged the jury and it retired to consider
the question of punishment. After due deliberation, the
jury was brought into Court, and, in open court, it returned its verdict as indicated above.
⬜ Court. Defendant elected to have the Court assess
punishment. After hearing evidence relative to the
question of punishment, the Court assessed Defendant’s punishment as indicated above.
⬜ No Election. Defendant did not file a written
election as to whether the judge or jury should assess
punishment. After hearing evidence relative to the
question of punishment, the Court assessed Defendant’s punishment as indicated above.
The Court FINDS Defendant committed the above
offense and ORDERS, ADJUDGES AND DECREES
that Defendant is GUILTY of the above offense. The
Court FINDS the Presentence Investigation, if so ordered, was done according to the applicable provisions
of TEX. CODE CRIM. PROC. art. 42.12 § 9.
The Court ORDERS Defendant punished as indicated above. The Court ORDERS Defendant to pay all
fines, court costs, and restitution as indicated above.

App. 30
Punishment Options (select one)
☒ Confinement in State Jail or Institutional
Division. The Court ORDERS the authorized agent
of the State of Texas or the Sheriff of this county to
take, safely convey, and deliver Defendant to the Director, Institutional Division, TDCJ. The Court
Orders Defendant to be confined for the period and in
the manner indicated above. The Court ORDERS Defendant remanded to the custody of the Sheriff of this
county until the Sheriff can obey the directions of
this sentence. The Court ORDERS that upon release
from confinement, Defendant proceed immediately to
the Matagorda County District Clerk. Once there, the
Court ORDERS Defendant to pay, or make arrangements to pay, any remaining unpaid fines, court costs,
and restitution as ordered by the Court.
⬜ County Jail—Confinement / Confinement in
Lieu of Payment. The Court ORDERS Defendant immediately committed to the custody of the Sheriff of
Matagorda County, Texas on the date the sentence is to
commence. Defendant shall be confined in the Matagorda County Jail for the period indicated above.
The Court ORDERS that upon release from confinement, Defendant shall proceed immediately to the
Matagorda County District Clerk. Once there, the
Court ORDERS Defendant to pay, or make arrangements to pay, any remaining unpaid fines, court costs,
and restitution as ordered by the Court.
⬜ Fine Only Payment. The punishment assessed
against Defendant is for a FINE ONLY. The Court

App. 31
ORDERS Defendant to proceed immediately to the Office of the Matagorda County. Once there, the
Court ORDERS Defendant to pay or make arrangements to pay all fines and court costs as ordered by the
Court in this cause.
Execution / Suspension of Sentence (select
one)
☒ The Court ORDERS Defendant’s sentence
CUTED.

EXE-

⬜ The Court ORDERS Defendant’s sentence of confinement SUSPENDED. The Court ORDERS Defendant
placed on community supervision for the adjudged period (above) so long as Defendant abides by and does
not violate the terms and conditions of community supervision. The order setting forth the terms and conditions of community supervision is incorporated into
this judgment by reference.
The Court ORDERS that Defendant is given credit
noted above on this sentence for the time spent incarcerated.
FURTHERMORE, THE FOLLOWING
SPECIAL FINDINGS OR ORDERS APPLY:
The Court finds that the defendant has the present financial ability to repay the court-appointed attorney’s
fees. The Court further finds that payment of financial
obligations ordered herein by the Court will not create
an undue burden upon the defendant.

App. 32
Defendant is hereby ORDERED to reimburse Matagorda County for court-appointed attorney’s fees in the
amount of $------.
Signed and entered on November 6, 2014
X Craig Estlinbaum
CRAIG ESTLINBAUM
JUDGE PRESIDING

Clerk: Jamie Bludau [Right Thumbprint Omitted]

App. 33
[SEAL]

CASE NO. 14-026 COUNT 1
INCIDENT NO./TRN: 9228004770

THE STATE OF TEXAS

§
§
v.
§
§
JUAN JOE CANO
§
STATE ID NO.: TX06347492 §

IN THE 130TH DISTRICT
COURT
MATAGORDA COUNTY,
TEXAS

JUDGMENT OF CONVICTION BY JURY
Judge Presiding:
Date Judgment
HON. CRAIG ESTLINBAUM Entered: 11/6/2014
Attorney for State:
STEVEN REIS

Attorney for
Defendant:
MARIO MADRID

Offense for which Defendant Convicted:
CONTINUOUS SEXUAL ABUSE OF A CHILD
Charging Instrument
INDICTMENT

Statute for Offense:
21.02 Penal Code

Date of Offense:
3/11/2011
Degree of Offense:
1ST DEGREE FELONY

Plea to Offense:
NOT GUILTY

Verdict of Jury:
GUILTY

Findings on Deadly Weapon:
N/A

Plea to 1st Enhancement
Paragraph: N/A

Plea to 2nd Enhancement/
Habitual Paragraph: N/A

App. 34
Findings on 1st Enhancement Findings on 2nd Enhancement/
Paragraph: N/A
Habitual Paragraph: N/A
Punished Assessed by:
JURY

Date Sentence Date Sentence
Imposed:
to Commence:
11/6/2014
11/6/2014

Punishment and
25 YEARS INSTITUTIONAL
Place of Confinement: DIVISION, TDCJ
THIS SENTENCE SHALL RUN CONCURRENTLY.

⬜

SENTENCE OF CONFINEMENT SUSPENDED, DEFENDANT PLACED ON COMMUNITY SUPERVISION FOR

Fine:
$0.00

Court Costs: Restitution Restitution Payable
$599.00
$ N/A
to:
⬜ VICTIM
(see below)
⬜ AGENCY/AGENT
(see below)

Sex Offender Registration Requirements apply
to the Defendant. TEX. CODE CRIM. PROC. chapter 62.
The age of the victim at the time of the offense was 10
years, 7 years.
If Defendant is to serve sentence in TDCJ,
enter incarceration periods in chronological
order.

Time
Credited:

From 7/16/2013 to
7/18/2013
From
to

From

to

From

to

From

From

to

to

App. 35
If Defendant is to serve sentence in county
jail or is given credit toward fine and costs,
enter days credited below.
N/A DAYS NOTES: N/A
All pertinent information, names and assessments indicated above are incorporated into the
language of the judgment below by reference.
This cause was called for trial in Matagorda
County, Texas. The State appeared by her District Attorney.
Counsel/Waiver of Counsel (select one)
☒ Defendant appeared in person with Counsel.
⬜ Defendant knowingly, intelligently, and voluntarily
waived the right to representation by counsel in
writing in open court.
It appeared to the Court that Defendant was mentally competent and had pleaded as shown above to the
charging instrument. Both parties announced ready
for trial. A jury was selected, impaneled, and swore.
The INDICTMENT was read to the jury, and Defendant entered a plea to the charged offense. The Court
received the plea and entered it of record.
The jury heard the evidence submitted and argument of counsel. The Court charged the jury as to its
duty to determine the guilt or innocence of Defendant,
and the jury retired to consider the evidence. Upon returning to open court, the jury delivered its verdict in
the presence of Defendant and defense counsel, if any.
The Court received the verdict and ORDERED it entered upon the minutes of the Court.

App. 36
Punishment Assessed by Jury / Court / No
election (select one)
☒ Jury. Defendant entered a plea and filed a written
election to have the jury assess punishment. The jury
heard evidence relative to the question of punishment.
The Court charged the jury and it retired to consider
the question of punishment. After due deliberation, the
jury was brought into Court, and, in open court, it returned its verdict as indicated above.
⬜ Court. Defendant elected to have the Court assess
punishment. After hearing evidence relative to the
question of punishment, the Court assessed Defendant’s punishment as indicated above.
⬜ No Election. Defendant did not file a written
election as to whether the judge or jury should assess
punishment. After hearing evidence relative to the
question of punishment, the Court assessed Defendant’s punishment as indicated above.
The Court FINDS Defendant committed the above
offense and ORDERS, ADJUDGES AND DECREES
that Defendant is GUILTY of the above offense. The
Court FINDS the Presentence Investigation, if so ordered, was done according to the applicable provisions
of TEX. CODE CRIM. PROC. art. 42.12 § 9.
The Court ORDERS Defendant punished as indicated above. The Court ORDERS Defendant to pay all
fines, court costs, and restitution as indicated above.

App. 37
Punishment Options (select one)
☒ Confinement in State Jail or Institutional
Division. The Court ORDERS the authorized agent
of the State of Texas or the Sheriff of this county to
take, safely convey, and deliver Defendant to the Director, Institutional Division, TDCJ. The Court
Orders Defendant to be confined for the period and in
the manner indicated above. The Court ORDERS Defendant remanded to the custody of the Sheriff of this
county until the Sheriff can obey the directions of
this sentence. The Court ORDERS that upon release
from confinement, Defendant proceed immediately to
the Matagorda County District Clerk. Once there, the
Court ORDERS Defendant to pay, or make arrangements to pay, any remaining unpaid fines, court costs,
and restitution as ordered by the Court.
⬜ County Jail—Confinement / Confinement in
Lieu of Payment. The Court ORDERS Defendant immediately committed to the custody of the Sheriff of
Matagorda County, Texas on the date the sentence is to
commence. Defendant shall be confined in the Matagorda County Jail for the period indicated above.
The Court ORDERS that upon release from confinement, Defendant shall proceed immediately to the
Matagorda County District Clerk. Once there, the
Court ORDERS Defendant to pay, or make arrangements to pay, any remaining unpaid fines, court costs,
and restitution as ordered by the Court.
⬜ Fine Only Payment. The punishment assessed
against Defendant is for a FINE ONLY. The Court

App. 38
ORDERS Defendant to proceed immediately to the Office of the Matagorda County. Once there, the
Court ORDERS Defendant to pay or make arrangements to pay all fines and court costs as ordered by the
Court in this cause.
Execution / Suspension of Sentence (select
one)
☒ The Court ORDERS Defendant’s sentence
CUTED.

EXE-

⬜ The Court ORDERS Defendant’s sentence of confinement SUSPENDED. The Court ORDERS Defendant
placed on community supervision for the adjudged period (above) so long as Defendant abides by and does
not violate the terms and conditions of community supervision. The order setting forth the terms and conditions of community supervision is incorporated into
this judgment by reference.
The Court ORDERS that Defendant is given credit
noted above on this sentence for the time spent incarcerated.
FURTHERMORE, THE FOLLOWING
SPECIAL FINDINGS OR ORDERS APPLY:
The Court finds that the defendant has the present financial ability to repay the court-appointed attorney’s
fees. The Court further finds that payment of financial
obligations ordered herein by the Court will not create
an undue burden upon the defendant.

App. 39
Defendant is hereby ORDERED to reimburse Matagorda County for court-appointed attorney’s fees in the
amount of $------.
Signed and entered on November 6, 2014
X Craig Estlinbaum
CRAIG ESTLINBAUM
JUDGE PRESIDING

Clerk: Jamie Bludau [Right Thumbprint Omitted]

